Appendix A
Order of the United States Court of appeals for the
Fourth Circuit denying rehearing and rehearing en banc
In case Number 19-1083
(3:16-CV-00024-J PB)

FILED: June 22, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-1083
(3:16-CV-00024-JPB)

UNITED STATES OF AMERICA
Plaintiff - Appellee
L

■

DAVID M. WASANYI
Defendant - Appellant
and
CITY PHARMACY, LLC; CITY PHARMACY OF CHARLES TOWN, INC.; AMY WASANYI;
ROGER LEWIS
Defendants

ORDER
Upon consideration of the motions to amend, correct, and update petition for rehearing and
rehearing en banc, the court grants the motions.
The court denies the petition for rehearing and rehearing en banc, as well as the amended
and supplemental petitions. No judge requested a poll under Fed. R. App. P. 35 on the petition for
rehearing en banc.
Entered at the direction of the panel: Judge Harris, Judge Richardson,
and Senior Judge Traxler.
For the Court
/s/ Patricia S. Connor. Clerk

Appendix B
Decision of the United States Court of appeals for the
Fourth Circuit
In case Number 19-1083
(3:16-cv-00024-J P B)

/

UNPUBLISHED
UNTIED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-1083

UNTIED STATES OF AMERICA,
Plaintiff - Appellee,
v.
DAVID M. WASANYI,
Defendant - Appellant,
and
CITY PHARMACY, LLC; CITY PHARMACY OF CHARLES TOWN, INC.;
AMY WASANYI; ROGER LEWIS,
Defendants.

Appeal from the United States District Court for the Northern District of West Virginia, at
Martinsburg. John Preston Bailey, District Judge. (3:16-cv-00024-JPB)

Submitted: December 30, 2019

Decided: February 20, 2020

Before HARRIS and RICHARDSON, Circuit Judges, and TRAXLER, Senior Circuit
Judge.
Affirmed by unpublished per curiam opinion.

/

*

t

David M. Wasanyi, Appellant Pro Se. Greg Thomas Kinskey, Assistant United States
Attorney, OFFICE OF THE UNITED STATES ATTORNEY, Wheeling, West Virginia,
for Appellee.

Unpublished opinions are not binding precedent in this circuit.

2

/

PER CURIAM:
David M. Wasanyi appeals from the district court’s order granting summary
judgment in favor of the United States and holding that Wasanyi violated the
Comprehensive Drug Abuse Prevention and Control Act of 1970,21 U.S.C. §§ 801-971
(2012). The court imposed a civil penalty of $335,670. Wasanyi challenges the judgment
on several bases but does not challenge the calculation of the civil penalty imposed.
Finding no error, we affirm.
We review “de novo the district court’s order granting summary judgment.”
Jacobs v. N.C. Admin. Office of the Courts, 780 F.3d 562, 565 n.l (4th Cir. 2015). “A
district court ‘shall grant summary judgment if the movant shows that there is no genuine
dispute as to any material fact and the movant is entitled to judgment as a matter of law.

9 99

Id. at 568 (quoting Fed. R. Civ. P. 56(a)). “A dispute is genuine if a reasonable jury could
return a verdict for the nonmoving party.” Id. (internal quotation marks omitted). In
determining whether a genuine issue of material fact exists, the court “view[s] the facts and
all justifiable inferences arising therefrom in the light most favorable to ... the nonmoving
party.” Id. at 565 n.l (internal quotation marks omitted). However, “the nonmoving party
must rely on more than conclusory allegations, mere speculation, the building of one
inference upon another, or the mere existence of a scintilla of evidence.”

Dash v.

Mayweather,13l F.3d 303, 311 (4th Cir. 2013).
Wasanyi raised several challenges to the court’s determination that he ignored
obvious warning signs and filled illegitimate prescriptions and that this activity violated 21
C.F.R. § 1306.04 (2019) and 21 U.S.C. § 842(a)(1) (2012), subjecting him to civil
3

ft f

penalties. These challenges included: that the district court judge was influenced against
him; that the Government deceived the court by citing requirements that prescribing
physicians must follow instead of pharmacists; that the district court did not allow Wasanyi
to adequately represent himself; that the Government expert’s affidavit was in error
regarding payment methods and discussion of opioids; that minority-owned pharmacies
were targeted; that the Government relied on inapplicable statutes and statistics; that the
Government’s intention is to put minority-owned pharmacies out of business; that the civil
prosecution is frivolous because the Government investigator did not personally see
Wasanyi fill the prescriptions; that it is a violation of the West Virginia Code to refuse to
fill a legitimate prescription based on method of payment; that a pharmacist cannot
diagnose a patient to determine whether the prescription is for a legitimate purpose; that
this civil prosecution is a violation of the Fourth Amendment because the pharmacist and
patient-customers are minorities; and that the Pharmacist’s DEA manual should be the
determining proof of whether a prescription is legitimate.
We have carefully reviewed Wasanyi’s arguments, the parties’ filings, and the
record and find no reversible error. The errors Wasanyi raises on appeal are either
unsupported or contradicted by the evidence, not raised in the district court, or ignore the
facts and applicable law. Accordingly, we affirm for the reasons stated by the district court.
United States v. Wasanyi, No. 3:16-cv-00024-JPB (N.D.W. Va. Apr. 19, 2017 & Dec. 21,
2018). We grant Wasanyi permission to proceed in forma pauperis. We deny Wasanyi’s
petition for writ of mandamus. We dispense with oral argument because the facts and legal

4

n*

t- r

contentions are adequately presented in the materials before this court and argument would
not aid the decisional process.
AFFIRMED

5

Appendix C
Order for the United District Court for the Northern
District of West Virginia
In case number (3:16-cv-00024-JPB)

United States District Court
for the

Northern District of West Virginia
United States of America,
Plaintiff(s)
v.
David M. Wasanyi,

Civil Action No.

3:16cv24

Defendants)

JUDGMENT IN A CIVIL ACTION
The court has ordered that:
[X] Judgment award
□ Judgment costs

□ Other

the plaintiff (name) United States of America
recover from the
defendant (name) David M. Wasanvi______
the amount of
Three hundred thirty-five thousand six hundred seventy dollars and 00/100 ___________________________
($ 335,670.00
), which includes prejudgment interest at the rate ofn/a__ %, plus post judgment interest
at the rate of 2.68% per annum.

This action was:
□ tried by jury

□ tried by judge

[3 decided by judge

decided by Judge John Preston Bailey

Date:

December 21, 2018

CLERK OF COURT
Cheryl Dean Riley
/s/ T. Gregory
Signature of Clerk or Deputy Clerk

Case 3:16-cv-00024-JPB Document 169 filed 12/21/18 Page 1 of 7 PagelD #: 2966

IN THE UNITED STATES DISTRICT BCOURT
FOR THE NORTHERN DISTRICT OF WEST VIRGINIA
Martinsburg
UNITED STATES OF AMERICA,
Plaintiff,
v.

Civil Action No. 3:16-CV-24
Judge Bailey

DAVID M. WASANYI,
Defendant.

FINDINGS OF FACT. CONCLUSIONS OF LAW AND ORDER
This is a civil action brought by the United States of America seeking civil penalties
for violations of the Comprehensive Drug Abuse Prevention and Control Act, 21 U.S.C. §
801, et seq., from defendant David M. Wasanyi.1
The Controlled Substances Act provides for a civil penalty of up to $25,000 per
violation of its provisions. 21 U.S.C. § 842(c)(1). In determining the amount of civil
penalties to be imposed under 21 U.S.C. § 842, courts have considered the following four
factors: (1) the willfulness of the violations; (2) the defendant's profits from the violations;
(3) the harm to the public; and (4) the financial capacity of the defendant to pay a penalty.
United States v. Barbacoff, 416 F.Supp. 606, 610 (D.D.C. 1976); United States v.
Williams, 416 F.Supp. 611,614 (D.D.C. 1976). In accordance with the Court’s conclusion
that 1,181 illegitimate prescriptions were filled, [Doc. 116 at 10], defendant is exposed to
a maximum penalty of $29,525,000.

1 The other defendants, Roger Lewis, Amy Louise, City Pharmacy and City
Pharmacy Charles Town have previously resolved the Government’s claims in a consent
decree. See Docs. 115,121 and 122.

Case 3:16-cv-00024-JPB Document 169 Filed 12/21/18 Page 2 of 7 PagelD #: 2967

By Order entered April 19, 2017, this Court granted the Government's Motion for
Summary Judgment finding defendant Wasanyi liable for violating 21 U.S.C. § 842(a)(1)
[Doc. 116].
A behch hearing was held on December 12,2018, to determine the amount of the
penalty, if any, to be imposed. The Government presented the testimony of Lindsey
Malocu, a diversion investigator with the Drug Enforcement Administration, and Dennis
Johnson , a civil investigator contracted to the U.S. Attorney’s Office. The Government also
introduced a number of documents. The defendant, David Wasanyi, offered comments
and introduced a number of exhibits.
Having heard the testimony Of the witnesses and having considered the exhibits
presented by both parties, this Court rules as follows:

1.

On February 29, 2016, the Government filed a complaint against the

above-named defendant, alleging violations of the Comprehensive Drug Abuse Prevention
and Control Act Of 1970,21 U.S.C. §§ 801-971 (“the CSA"), and seeking civil penalties for
the same.
2.

Specifically, the United States alleges violations of 21 U.S.C. § 842(a)(1), 21

U.S.C. § 829,21 C.F.R. § 1306.04,21 C.F.R. § 1306.05 and 21 C.F.R. § 1306.11 [Id.]. The
Government claims that the individual defendants utilized City Pharmacy, LLC (“CP”), and
City Pharmacy of Charles Town, Inc. (“CPCT"), to fill illegitimate prescriptions for controlled
substances, including those which were: (1) written by medical providers located in distant
states; (2) presented by individuals who traveled from distant locations; (3) paid for using
cash; (4) altered by scratching out the medical provider’s fill date, increasing the number
of units being prescribed orchanging the strength, nature or type of controlled substance;

Case 3; 16-CV-00024-JPB Document 169 Filed 12/21/18 Page 3 of 7 PagelD #: 2968

and (5) lacking the full name or address of the patient for whom the prescription was
written.
3.

During the time of the events alleged in the Complaint, David Wasanyi was

a pharmacist, licensed by the West Virginia Board of Pharmacy, and was the primary
pharmacist at both City Pharmacy and City Pharmacy Charles Town.
4.

From 2010 into 2015, City Pharmacy and City Pharmacy Charles Town filled

1,181 invalid prescriptions for Schedule II and Schedule III controlled substances, wntten
by 45 physicians located in Florida, Georgia, Tennessee and Virginia for patients in
Alabama, Florida, Georgia, Kentucky, Maryland, Ohio, Tennessee and Virginia.
5.

Most of the prescriptions (957) Were Written for allegedly fraudulent patients

who were residents of Kentucky and Ohio.
6.

Additionally, all of the purportedly fraudulent patients traveled great distances

to have the prescriptions filled.
7,

The individual defendants utilized CP and CPCT, to fill illegitimate

prescriptions for controlled substances, including those which were: (1) written by medical
providers located in distant states; (2) presented by individuals who traveled from distant
locations; (3) paid for using cash; (4) altered by scratching out the medical provider's fill
date, increasing the number of units being prescribed or changing the strength, nature or
type of controlled substance; and (5) lacking the full name or address of the patient for
whom the prescription was written.
8.

The Government presented copies of four of the prescriptions at issue and

a spreadsheet summarizing the prescriptions, which, in turn, purportedly demonstrate that
the vast majority of the prescriptions were written by a provider who was not located in the

Case 3:16-cv-00024-JPB Document 169 Filed 12/21/18 Page 4 of 7 PagelD #: 2969

same state as the patient [Gov't Exs. 1 and 3].
In his capacity as a pharmacist, Wasanyi filled the majority of the

9

aforementioned 1,181 illegitimate prescriptions until his arrest in April of 2014. At that time,
Wasanyi was

arrested and indicted by the State of West Virginia for improper delivery of

controlled substances, and ultimately he faced charges in two separate Berkeley County
cases and one Jefferson County case.
10.

In April of 2016, Wasanyi was convicted in the Circuit Court of Berkeley

County (Case No. 15-F-17) of two counts of improper delivery of diazepam and one count
of improper delivery of buprenorphine.
11.

Then, in October of 2016, Wasanyi was convicted in the Circuit Court of

Berkeley County (Case No. 16-F-54) on 13 counts of improper delivery of a controlled
substance. The charges in Case No. 16-F-54 involved 13 prescriptions presented by two
women from Kentucky and written by a Georgia provider and are, in turn, allegedly similar
to the 1,181 prescriptions at issue in this Federal civil action.
12.

Finally, in February of 2016, Wasanyi was indicted in Jefferson County Circuit

Court (Case No. 16-F-123) for his alleged role in a conspiracy to obtain controlled
substances by fraud. No evidence has been presented as to the outcome of this case.
13.

This action followed those related state-court matters.

14.

By Order entered April 19,2017, this Court granted on part and denied in part

the Government's Motion for Summary Judgment [Doc. 116].
15.

With respect to the first factor, this Court finds that the violations in question

were willful and designed to increase the profitability of the defendant’s pharmacy
business.

Case 3:16-cv-00024-JPB Document 169 Filed 12/21/18 Page 5 of 7 PagelD #. 2970

16

The second factor relates to the defendant’s profits from the violations.

17.

In that regard, the Government presented an exhibit showing the profits that

would be made if the drugs were sold on the Street (Gov’t Ex. 2).
18.

the fault with this evidence is that there Is no evidence that the defendant

sold the drugs on the street thereby gamering the profits indicated on the exhibit. In
addition, there is no way of knowing how many, if any, of the pills were sold on the street
as opposed to being consumed by the purchasers themselves.
19.

In an effort to arrive at some semblance of a fair number and being of the

opinion that the penalty is not required to be established with mathematical certainty, this
Court will extrapolate the amount under this factor.
20.

All four of the prescriptions presented involved oxycodone. There were two

prescriptions for oxycodone 20 mg., which were sold for $3.00 per tablet. One prescription
for oxycodone 15 mg., were sold for $2.50 per tablet. The final prescription, for oxycodone
30 mg., were sold for $.50 per tablet [Gov’t Ex. 3].
21.

According to the street value exhibit presented by the Government [Gov’t Ex.

2], the street value of an oxycodone 15 mg. is $15. The street value of a 20 mg. is $20,
and the value of a 30 mg. is $30.
22.

Accordingly, the 15 mg. tablets sold for 16.6 % of the street value; the 20 mg.

tablets sold for 15 % of street value; and the 30 mg. tablets sold for 11.6 % of the street
value.
23-

I nasmuch as the vast majority of the oxycodone sold were the 30 mg. tablets,

this Court will estimate that the defendant received 12.5 % of the street values listed on
Exhibit 2, or $335,670.

Case 3:16-cv-00024-JPB Document 169 Filed 12/21/18 Page 6 of 7 PagelD #: 2971

24.
There is
is

The third factor to be considered is the harm to the public from the violations.

little doubt that the opiod crisis in West Virginia is tragic and widespread. There

also little evidence that these drugs were used or sold in West Virginia , since the

purchasers appear to have come from outside West Virginia.
25.
the penalty

The final factorto be considered is the financial ability of the defendantto pay
Some Courts have determined that the burden is on the defendant to

demonstrate an inability to pay. United States v. Ahuja, 736 Fed.Appx. 20, 22 (2d Cir.

2018).
26

In this case, the limited evidence indicates little ability to pay.

The

defendant’s home has been repossessed; he no longer owns either of his low value
automobiles; he is in prison; and he will lose (if the has not lost already) his license to
practice pharmacy.
27

Based upon a balancing of all these factors, this Court will impose a penalty

equal to the estimated income from the tablets that were sold; that is $ 335,670.
Accordingly, the Clerk is directed to enter a judgment against the defendant in the
amount of $ 335,670 plus post judgment interest beginning on the date of judgment, and
to terminate this civil action.
It is so ORDERED.
The Clerk is directed to transmit copies of this Order to any counsel of record and
to mail a certified copy to the pro se defendant.

*

A
f

Case 3:16-CV-00024-J P B

Document 169 Filed 12/21/18 Page 7 of 7 PagelD #; 2972

*

DATED: December 21,2018.

.1

JO ftm.PRFSTON BAILEY
UNITED STATES DISTRICT JUDGE

;

:

Additional material
from this filing is
available in the
Clerk's Office.

